TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Planning for the 2006 Filing Season
                       Is on Course, but Challenges Exist
                     for the Toll-Free Telephone Operations



                                          February 2006

                              Reference Number: 2006-40-053




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 February 27, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Planning for the 2006 Filing Season Is on Course,
                                 but Challenges Exist for the Toll-Free Telephone Operations
                                 (Audit # 200540041)

 This report presents the results of our review of whether the Wage and Investment Division
 Customer Account Services function adequately prepared its toll-free telephone operations for
 the 2006 Filing Season1 and adequately considered and accounted for the effects of Hurricanes
 Katrina and Rita in the 2006 Filing Season preparations.
 This review was conducted in conjunction with the President’s Council on Integrity and
 Efficiency as part of its examination of relief efforts provided by the Federal Government in the
 aftermath of Hurricanes Katrina and Rita. As such, a copy of the report has been forwarded to
 the President’s Council on Integrity and Efficiency Homeland Security Working Group, which is
 coordinating the Inspectors’ General reviews of this important subject.

 Synopsis
 Each year, millions of taxpayers contact the Internal Revenue Service (IRS) seeking assistance in
 understanding the tax law and meeting their tax obligations by calling the various Customer
 Account Services function toll-free telephone lines. The Customer Account Services function
 appears to have an effective planning process for the 2006 Filing Season. The process the
 Customer Account Services function uses to plan for the toll-free telephone operations is
 primarily budget driven and has not changed substantially from recent years. Additionally, prior
 Treasury Inspector General for Tax Administration (TIGTA) audits have shown the process
 generally to be effective. For example, in Fiscal Years 2004 and 2005, the TIGTA reported that


 1
     The period from January through mid-April when most individual income tax returns are filed.
                          Planning for the 2006 Filing Season Is on Course,
                     but Challenges Exist for the Toll-Free Telephone Operations



the IRS provided taxpayers with effective access to its toll-free telephone lines and realized
productivity and efficiency gains.2
If the Customer Account Services function 2006 Filing Season plans are properly implemented,
taxpayers that call the IRS toll-free telephone lines for assistance should receive effective
customer service. Customer Account Services function management has established goals and
objectives for the 2006 Filing Season and, based on budget and data from prior years, has
planned for the upcoming fiscal year to ensure staffing, training, and equipment are sufficient for
the toll-free telephone operations.
While the planning process appears to be effective, the 2006 Filing Season could present unique
challenges. We believe more taxpayers than the IRS estimates could call the Special Services
Applications, the telephone lines used for disaster-related issues. In addition, the IRS had
planned to reduce toll-free telephone hours of operation in Fiscal Year 2006. The Customer
Account Services function will have about 400 fewer Full-Time Equivalents3 for toll-free
telephone operations than it had in Fiscal Year 2005 due to plans to reduce operating hours from
15 to 12 hours per day. However, the IRS is still determining if it will reduce the toll-free hours
of operation and when the new hours would take effect.
Congress and the National Treasury Employees Union have expressed concerns about the IRS
reducing operating hours for the toll-free telephone lines. A new law enacted in November 2005
requires the IRS to consult with stakeholder organizations, including the TIGTA, regarding any
proposed or planned efforts to terminate or reduce significantly any taxpayer service activity.4
Congress recently further defined a reduction of taxpayer service to include limiting available
hours of telephone taxpayer assistance on a daily, weekly, and monthly basis below the levels in
existence during the month of October 2005.5 As a result, in Fiscal Year 2006 the TIGTA is
conducting an audit to evaluate the IRS’ plans to reduce operating hours for the toll-free
telephone lines.




2
  Taxpayers Experienced Improved Access to Toll-Free Telephone Services During the 2004 Filing Season
(Reference Number 2004-30-144, dated August 2004) and Taxpayers Continued to Experience Improved Access to
Toll-Free Telephone Service During the 2005 Filing Season (Reference Number 2005-40-155, dated
September 2005).
3
  A Full-Time Equivalent is a measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied
by the number of compensable days in a particular fiscal year. This usually equates to 1 person working 1 year, but
can equate to 2 people working 1/2 of a year each, 2 people working part time for a full year, 3 people working
1/3 of a year each, etc. For Fiscal Year 2006, 1 Full-Time Equivalent is equal to 2,080 staff hours.
4
  The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2006).
5
  Department of Defense Appropriations Act, Pub. L. No. 109-148, 119 Stat. 2680 (2006).
                                                                                                                  2
                       Planning for the 2006 Filing Season Is on Course,
                  but Challenges Exist for the Toll-Free Telephone Operations




Recommendations
We made no recommendations in this audit report but will monitor the toll-free telephone
operations during the 2006 Filing Season.

Response
The IRS appreciated our acknowledgement of the detailed and complex planning process
required to ensure a successful 2006 Filing Season and that each new filing season presents
numerous unique challenges. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report finding.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs) (Designee), at
(202) 622-5916.




                                                                                                3
                              Planning for the 2006 Filing Season Is on Course,
                         but Challenges Exist for the Toll-Free Telephone Operations




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Customer Account Services Function Has an Effective
          Process to Prepare the Toll-Free Telephone Operations for
          the 2006 Filing Season..................................................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
                          Planning for the 2006 Filing Season Is on Course,
                     but Challenges Exist for the Toll-Free Telephone Operations




                                            Background

Most taxpayers’ only contact with the Internal Revenue Service (IRS) is during the filing season,
the period from January thorough mid-April when nearly all individual taxpayers file their tax
returns. During these months, millions of taxpayers seek assistance filing their tax returns by
calling the IRS on its toll-free telephone lines, walking into local IRS offices called Taxpayer
Assistance Centers, or accessing the IRS’ public Internet site, IRS.gov. Although accessing
IRS.gov is the single most frequent means of contacting the IRS for taxpayers, the second most
frequent means is calling the toll-free telephone lines.
The IRS is committed to providing quality customer service, and its success in doing so is
essential to voluntary
compliance. During the                     Figure 1: IRS Handled Calls for the
2005 Filing Season, the IRS                          2005 Filing Season
devoted 8,200 Full-Time
Equivalents1 to answer the
toll-free telephone lines at call
sites located throughout the
United States and
Puerto Rico. Taxpayers
called the IRS Customer
Account Services function
toll-free telephone lines
approximately 41.8 million
times2 during the 2005 Filing
Season. Of these,
16.8 million were made to the         Source: IRS Enterprise Telephone Data Warehouse.
toll-free telephone number,
1-800-829-1040, the telephone number taxpayers call to ask tax law or account-related questions.




1
  A Full-Time Equivalent is a measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied
by the number of compensable days in a particular fiscal year. This usually equates to 1 person working 1 year, but
can equate to 2 people working 1/2 of a year each, 2 people working part time for a full year, 3 people working
1/3 of a year each, etc. For Fiscal Year 2006, 1 Full-Time Equivalent is equal to 2,080 staff hours.
2
  These calls were made to the suite of 17 telephone lines the IRS refers to as “Customer Account Services
Toll-Free.” Unless otherwise specified, all references made in this report to the toll-free telephone system
performance data are for Customer Account Services function toll-free telephone lines through April 16, 2005, and
comparable prior years.
                                                                                                           Page 1
                           Planning for the 2006 Filing Season Is on Course,
                      but Challenges Exist for the Toll-Free Telephone Operations



In addition, over 9.4 million calls were made to the IRS automated TeleTax system3 that
provides recorded tax law and refund information. Figure 1 shows the number of calls made to
the Customer Account Services function toll-free telephone lines and the 14.8 million calls
answered during the 2005 Filing Season.
Taxpayers that call the IRS can receive automated services or choose to speak to a live assistor,
called a customer service representative (assistor). For taxpayers using a touchtone telephone,
the automated service uses recorded information and interactive applications to provide
automated refund status information, permit taxpayers to obtain a payoff amount for an
outstanding balance due, or enable taxpayers to set up an installment agreement to settle a
delinquent tax debt.
The Director, Customer Account Services, in the Wage and Investment (W&I) Division manages
the toll-free telephone operations for the Customer Account Services function. Within the
Customer Account Services function are the Accounts Management Office and the Joint
Operations Center. Assistors in the Accounts Management Office answer the toll-free telephone
lines and are trained and certified on specific applications4 for each current filing season.
Assistors answer taxpayer questions involving tax law and other related tax account conditions
such as refunds, balance-due billing activity, and changes to the amount of taxes owed. For
example, if an individual taxpayer calls to find out where to mail a tax return, the call would be
routed to an assistor who has been trained to handle IRS procedural issues for individual
taxpayers. If a business taxpayer calls to find out the taxes due on a business account, the call
would be routed to an assistor who handles balance-due questions for business taxpayers.
The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call sites and assistors that have the skills and are available to answer the calls. In addition, it
monitors the call sites for abnormally high queue (wait) times and/or number of assistors that are
idle or available to answer calls. When this occurs, actions are taken to modify routing scripts
and balance the workload and associated staffing.
Effective management of the IRS’ toll-free telephone operations requires extensive planning
prior to the beginning of each fiscal year. Based on historical data from prior filing seasons and
planning assumptions for the upcoming filing season, the Accounts Management Office and
Joint Operations Center Directors develop plans to maximize the effective use of resources,
including plans to ensure sufficient staffing, training, and equipment for the toll-free telephone
operations.


3
  The TeleTax system allows taxpayers to check the status of their current year refunds or listen to recorded tax
information on a variety of topics.
4
  The Customer Account Services function toll-free telephone lines are further subdivided into categories called
“applications.” Each application is staffed with a group of assistors that have received specialized training to assist
taxpayers with specific tax issues.
                                                                                                                Page 2
                             Planning for the 2006 Filing Season Is on Course,
                        but Challenges Exist for the Toll-Free Telephone Operations



The Customer Account Services function measures success and establishes goals in which to
measure its success, including:
•      Level of Service – The relative success rate of taxpayers calling for assistance and seeking
       services from an assistor. Part of the calculation of results for this measure includes the
       percentage of call attempts made by taxpayers compared to the number of calls answered by
       the IRS.
•      Average Speed of Answer – The average number of seconds taxpayers waited in the queue
       before receiving services.
•      Accuracy – How often customers received the correct answers to their inquiries and/or had
       their cases resolved correctly based upon all available information and Internal Revenue
       Manual required actions.
The effects of Hurricanes Katrina and Rita create unique challenges for the IRS and the
2006 Filing Season. The IRS has a Disaster Assistance and Emergency Relief Program to
provide administrative tax relief to taxpayers and tax practitioners affected by a major disaster or
emergency so they can meet their Federal tax obligations for filing tax returns or paying taxes
without being penalized. In addition, the Katrina Emergency Tax Relief Act of 2005 (KETRA)5
enacted on September 23, 2005, contained provisions to provide relief for Hurricane Katrina
victims.
In the hardest hit areas, the tax relief will be automatic and taxpayers will not need to do
anything to get the extensions and other relief
available. In areas where the Federal Emergency              A total of 179 counties and parishes
Management Agency (FEMA) has determined                    were declared a “Presidential Disaster
damage is more isolated or for other taxpayers               Area” related to Hurricane Katrina –
outside the impacted area, taxpayers will be               22  counties in Alabama, 11 counties in
                                                            Florida, 64 parishes in Louisiana, and
required to identify themselves as Hurricane                    82 counties in Mississippi. For
Katrina victims when filing tax returns with the            Hurricane Rita, a total of 254 counties
IRS. The IRS will also work with any taxpayer               in Texas and 64 parishes in Louisiana
who resides elsewhere but whose books, records,                  were declared disaster areas.
or tax professional are located in the areas affected
by Hurricane Katrina.
The IRS took numerous actions to provide broad relief to affected taxpayers. This included
postponing deadlines for filing and payment, providing relief from interest and penalties, and
waiving some low-income housing tax credit rules. It also waived the usual fees and expedited
requests for copies of previously filed tax returns for affected taxpayers who needed them to
apply for benefits or to file amended tax returns to claim casualty losses.


5
    Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
                                                                                               Page 3
                          Planning for the 2006 Filing Season Is on Course,
                     but Challenges Exist for the Toll-Free Telephone Operations



The KETRA applies to people affected by Hurricane Katrina and to those taxpayers helping
victims of the disaster. For example, the KETRA provides for suspension of certain limitations
on personal casualty losses; provides an additional personal exemption of $500 for each
Hurricane Katrina-displaced individual that a taxpayer houses for more than 60 days; and, with
respect to taxable years beginning in 2005 or 2006, provides that taxpayers do not lose
dependency exemptions or child credits or experience a change of filing status because of
temporary relocations after Hurricane Katrina.
IRS employees also provided tax assistance at FEMA Disaster Assistance Sites in numerous
locations. The IRS assigned 5,000 employees to augment Federal Government telephone call
sites and provided additional employees to assist in approximately 34 FEMA disaster recovery
centers in 13 States. The IRS called back 4,000 seasonal employees6 in September 2005 to
minimize the disruption to ongoing IRS work.
This review was performed at the Customer Account Services function of the W&I Division
Headquarters in Atlanta, Georgia, during the period September through December 2005. The
audit was conducted in accordance with Government Auditing Standards. To timely report the
results of the review, we ended testing on December 1, 2005. Since the Customer Account
Services function had not completed planning for the 2006 Filing Season, many of the planning
documents were still in draft status, were incomplete, or had not been finalized. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
 Seasonal employees work during high workload volume periods that are specified in their seasonal employment
agreement each year.
                                                                                                       Page 4
                         Planning for the 2006 Filing Season Is on Course,
                    but Challenges Exist for the Toll-Free Telephone Operations




                                    Results of Review

The Customer Account Services Function Has an Effective Process to
Prepare the Toll-Free Telephone Operations for the 2006 Filing Season
Based on the budget and data from prior years, the Customer Account Services function has
planned the upcoming fiscal year to ensure sufficient staffing, training, and equipment for the
toll-free telephone operations. The process the Customer Account Services function uses to plan
for the toll-free operations is primarily budget driven and has not changed substantially from
recent years. The impact of changes affecting the toll-free telephone operations, such as
Hurricanes Katrina and Rita, is and will be addressed by daily real-time adjustments to move
resources where they are needed to handle the demand for services.
Although planning for the 2006 Filing Season had not been completed when audit testing ended
December 1, 2005, prior Treasury Inspector General for Tax Administration (TIGTA) audit
results have shown the Customer Account Services function’s planning process for the toll-free
telephone operations is generally effective.7 For example, the TIGTA reported that, during the
2004 and 2005 Filing Seasons, the IRS provided taxpayers with effective access to its toll-free
telephone lines and realized productivity and efficiency gains. In the 2005 Filing Season, the
IRS achieved 105 percent of its planned assistor services and 90 percent of its planned automated
services. Assistors answered 4 percent more calls than planned using 95 percent of the planned
resources and more calls per Full-Time Equivalent than in the 2004 Filing Season. Nevertheless,
in the 2005 Filing Season, the IRS reduced access to the toll-free telephone lines, causing
taxpayers to wait a little longer to speak to an assistor and resulting in more taxpayers hanging
up without receiving service.
The 2006 Filing Season could present unique challenges. The IRS had planned to reduce
toll-free telephone hours of operation in Fiscal Year 2006. The Customer Account Services
function will have about 400 fewer Full-Time Equivalents for toll-free telephone operations than
it had in Fiscal Year 2005 due to plans to reduce operating hours from 15 to 12 hours per day.
However, the IRS is still determining if it will reduce the toll-free hours of operation and when
the new hours would take effect. If more taxpayers call in than planned, they could experience
longer wait times than in recent filing seasons.


7
 The Wage and Investment Division Properly Planned for the 2002 Toll-Free Telephone Operation
(Reference Number 2002-40-058, dated March 2002), Taxpayers Experienced Improved Access to Toll-Free
Telephone Services During the 2004 Filing Season (Reference Number 2004-30-144, dated August 2004), and
Taxpayers Continued to Experience Improved Access to Toll-Free Telephone Service During the 2005 Filing Season
(Reference Number 2005-40-155, dated September 2005).
                                                                                                      Page 5
                           Planning for the 2006 Filing Season Is on Course,
                      but Challenges Exist for the Toll-Free Telephone Operations



Congress and the National Treasury Employees Union have expressed concerns about the IRS
reducing operating hours for the toll-free telephone lines. A law enacted in November 2005
requires the IRS to consult with stakeholder organizations, including the TIGTA, regarding any
proposed or planned efforts to terminate or reduce significantly any taxpayer service activity.8
Congress recently further defined a reduction of taxpayer service to include limiting available
hours of telephone taxpayer assistance on a daily, weekly, and monthly basis below the levels in
existence during the month of October 2005.9 As a result, in Fiscal Year 2006 the TIGTA is
conducting an audit to evaluate the IRS’ plans to reduce toll-free operating hours for the toll-free
telephone lines.

The Customer Account Services function has established its Fiscal Year 2006
objectives and goals
The Customer Account Services function appropriately used the W&I Division Strategy and
Program Plan Fiscal Years 2006–2007, Draft Fiscal Year 2006 Program Letter,10 and
Fiscal Year 2006 Work Plan to prepare for the upcoming fiscal year and filing season. As shown
in Figure 2, the Customer Account Services function has established several toll-free telephone
line goals for Fiscal Year 2006.
     Figure 2: Customer Account Services Function Goals for Fiscal Year 2006

             Measure                                                  Fiscal Year 2006 Goal

             Level of Service                                                    82%
             Average Speed of Answer                                    Below 300 Seconds
             Accounts Accuracy                                                   92%
             Tax Law Accuracy                                                    89%
            Source: Draft Accounts Management Office Fiscal Year 2006 Program Letter.

W&I Division Strategy and Program Plan Fiscal Years 2006–2007
The W&I Division Strategy and Program Plan Fiscal Years 2006–2007 outlines operational
priorities for taxpayer assistance, which include:



8
  The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2006).
9
  Department of Defense Appropriations Act, Pub. L. No. 109-148, 119 Stat. 2680 (2006).
10
   The Customer Account Services function Fiscal Year 2006 Program Letter had not been issued during the time we
were conducting our audit tests. Therefore, our results are based on the draft version of the Program Letter obtained
November 14, 2005.
                                                                                                             Page 6
                         Planning for the 2006 Filing Season Is on Course,
                    but Challenges Exist for the Toll-Free Telephone Operations



•    Leveraging opportunities for improvement by seeking the most efficient and effective
     channels of delivering filing season services, including responding to questions on tax law
     changes and processing of tax documents. The Accounts Management Office will continue
     to develop and implement customer-driven improvements to telephone applications through
     blending of applications. The blending of applications is designed to improve the customer
     experience, for example, by combining specific applications to reduce customer transfer and
     hold time when a customer seeks “live” assistance.
•    Identifying less costly methods of service delivery, such as automation, to reduce customer
     dependence on traditional methods of delivery, improve quality, and utilize resources more
     efficiently. The Joint Operations Center is planning to implement Centralized Contact Center
     Forecasting and Scheduling (CCCF&S) in Fiscal Year 2006. The CCCF&S is an end-to-end
     workforce management solution that produces schedules that achieve business results and
     maximize resources in a multichannel environment. The CCCF&S project will complete
     delivery of a dynamic, interactive system that will perform enterprise-wide tactical strategic
     planning of workload forecasts and staffing schedules.
Draft Fiscal Year 2006 Program Letter
The Draft Fiscal Year 2006 Program Letter highlights toll-free telephone operations objectives
and goals, as well as the operating guidelines, for the upcoming fiscal year. Figure 3 compares
the actual Level of Service and Average Speed of Answer11 achieved for the last four filing
seasons compared to the goals for Fiscal Year 2006.
               Figure 3: Comparison of the Filing Season Actual Service
                             to Fiscal Year 2006 Goals

 Measure                       2002         2003         2004        2005       Fiscal Year 2006 Goals

 Level of Service             66.6%        82.4%        84.7%        81.7%                   82%
 Average Speed of                                                                  Below 300 Seconds
 Answer for Accounts            293         138          206       301                 (5 minutes)
 Average Speed of                                                                  Below 300 Seconds
 Answer for Tax Law             160         196          165       190                 (5 minutes)
Source: IRS Enterprise Telephone Data Warehouse and Draft Fiscal Year 2006 Program Letter.




11
  The Average Speed of Answer goal is a program-wide goal; separate goals for Accounts and Tax Law Accuracy
are not established each year.
                                                                                                     Page 7
                             Planning for the 2006 Filing Season Is on Course,
                        but Challenges Exist for the Toll-Free Telephone Operations



The Customer Account Services function also increased the Toll-Free Accuracy goals from
Fiscal Year 2005 to 2006—from 90.5 to 92.0 percent for Accounts and from 82.0 to 89.0 percent
for Tax Law.
The Draft Fiscal Year 2006 Program Letter also establishes the strategic measures and goals that
will be used to assess the overall performance of the Accounts Management Office. It states the
Customer Account Services function will continue its efforts to improve customer service. Of
note in the Draft Fiscal Year 2006 Program Letter are plans to:
•      Certify all assistors answering tax law applications are ready to correctly and completely
       respond to inquiries. The certification process will include application readiness action
       plans, including emphasis on enhancing each assistor’s proficiency on the topics he or she
       has been assigned and certification status reports indicating whether assistors are currently
       certified or certification is still in progress. Final certification is to be completed by the end
       of the calendar year.
•      Verify hiring has been accomplished to meet staffing levels. The Draft Fiscal Year 2006
       Program Letter specifies that all levels of call site management must consistently focus on
       delivering the appropriate staffing for all assigned program areas. This includes
       (when necessary) using overtime, changes in tours of duty,12 and cross training employees
       where appropriate. Each call site is responsible for creating filing season readiness plans and
       work schedules to plan the use of resources based on the projected staffing levels. The
       Program Management Office staff will monitor call site staffing using available staffing tools
       to ensure uniformity with authorized staffing patterns, span of control, and progress toward
       achieving the planned levels. Hiring will be tracked by regular hiring reports and reported to
       the Filing Season Readiness Executive Steering Committee and other levels of management.
•      Redistribute assistors and workloads into other product lines as needed. The Draft Fiscal
       Year 2006 Program Letter specifies the strategy used to monitor delivery of services and
       transfer resources from one application to another to address fluctuations in demand in all
       toll-free product lines.
•      Ensure assistors will be adequately and timely trained. The Draft Fiscal Year 2006 Program
       Letter outlines (by assistor experience level) specific training courses, the number of training
       hours, and a target completion date of January 23, 2006.
•      Provide adequate space and equipment. The Draft Fiscal Year 2006 Program Letter reminds
       call site managers to ensure current workstation data are updated as needed to facilitate
       decisions on hiring, tours of duty, and space and equipment needs.
The Draft Fiscal Year 2006 Program Letter also provides guidance for seasonal employees (such
as training, the events that are “out of season” that may extend the stated season in the seasonal

12
     “Tour of duty” is the term used to specify the days and times employees are scheduled to work.
                                                                                                      Page 8
                          Planning for the 2006 Filing Season Is on Course,
                     but Challenges Exist for the Toll-Free Telephone Operations



employment agreement, inclusion of seasonal employees when creating work plans and
schedules, and management of the seasonal workforce) and provides an able roadmap for the
upcoming year.
Fiscal Year 2006 Work Plan
Each year, the IRS allocates Full-Time Equivalents to the Accounts Management Office for the
toll-free telephone operations. Based on the budgeted resources, the Customer Account Services
function plans for the number of taxpayer calls that will be answered by assistors and the number
of services taxpayers may need during the calls. These data are used to set the Level of Service
goal for the filing season.
To reduce staff costs with the least effect on taxpayers, the IRS has plans to reduce certain
hours of operation. Toll-free telephone operations hours of operation for October 1 through
December 31, 2005, are 15 hours a day, from 7:00 a.m. to 10:00 p.m. local time. The IRS has
plans to reduce hours of operation to 12 hours a day, from 8:00 a.m. to 8:00 p.m. local time,
Monday through Friday. Caller access would be restricted to the hours of operation within each
caller’s own time zone.
Using historical data and planning assumptions, the Accounts Management Office and the Joint
Operations Center work together to develop a Work Plan.13 Using 7,800 Full-Time Equivalents
and 46.5 million estimated services to be provided (including screener), the Customer Account
Services function established an 82 percent Level of Service and below 300 seconds Average
Speed of Answer goals.
•    The Accounts Management Office based its planning on 7,800 Full-Time Equivalents, about
     400 fewer than in the Fiscal Year 2005 Work Plan. Customer Account Services function
     management stated assistors who were working the FEMA telephone lines or performing
     other Hurricane relief work had returned to duty on November 8, 2005, and will be ready for
     the 2006 Filing Season.
•    The Accounts Management Office and the Joint Operations Center estimate the trend will
     continue that fewer taxpayers will use the toll-free telephone lines in Fiscal Year 2006. It
     estimates 31.9 million services will be provided (including screener) on the toll-free
     telephone lines during the Second Planning Period of Fiscal Year 2006 (January though
     June). This represents a decrease of 1.8 percent from the actual services provided for the
     same period in Fiscal Year 2005.
Customer Account Services function management stated they expect fewer calls program-wide
in Fiscal Year 2006, even after taking into consideration taxpayers affected by Hurricanes
Katrina and Rita. They believe most taxpayers needing disaster relief assistance obtained it


13
  While the Customer Account Services function did not provide a copy of the Work Plan, the necessary
information was obtained from the Joint Operations Center web site.
                                                                                                        Page 9
                           Planning for the 2006 Filing Season Is on Course,
                      but Challenges Exist for the Toll-Free Telephone Operations



during the latter part of Calendar Year 2005, and the Customer Account Services function had
initially planned for a slight decrease in services to the Special Services Applications (the lines
used for disaster-related issues). We believe more taxpayers than expected could call those
telephone lines with questions because of the effects of Hurricanes Katrina and Rita. After we
discussed our concern, Customer Account Services function management raised the estimated
volume of services to these telephone lines by 78,432 services, from 26,646 to 105,078 from
January through June 2006, reflecting a 365.1 percent increase over the total Fiscal Year 2005
services provided on those telephone lines.14
The Customer Account Services function staff will monitor and corporately manage the
telephone workload using call site management tools. The Joint Operations Center staff use
real-time data, with information about nontelephone workload, to make routing decisions and
balance resources.

The Customer Account Services function has appropriately planned to train
telephone assistors and update the tools used to help taxpayers with tax matters
All assistors are to be trained by January 23, 2006. In addition, all call site managers are
required to certify (verify) that all assistors are properly trained and that assistors answering tax
law questions have been certified on the topics assigned.
A review of the training program and the training plan showed training for the upcoming fiscal
year is scheduled for all assistors and all call sites. As of December 1, 2005, when our audit
testing was completed, all training had not been completed, but Accounts Management Office
management is confident the training will be completed as planned. Training is scheduled from
October 3, 2005, through January 20, 2006.
The required tax law training is listed on the schedules for six of the eight call sites that handle
the majority of tax law applications; however, Customer Account Services function management
stated training for tax law changes is scheduled for all call sites that handle tax law applications.
The training for the other two call sites may not be listed on some training templates due to lack
of space.
As of November 29, 2005, training had been completed in 187 of 323 scheduled training classes
in 22 of 25 call sites. An additional 136 training classes are scheduled to be completed by
January 20, 2006.
During Calendar Year 2005, eight new laws were enacted that affect tax administration. We
reviewed the KETRA, as well as two of the other seven laws (the Energy Policy Act of 200515
and the Bankruptcy Abuse Prevention and Consumer Protection Act of 200516) and determined

14
   The estimated volumes of service are as of the end of our testing, December 1, 2005.
15
   109 P.L. 58, 119 Stat. 594 (2005).
16
   109 P.L. 8, 119 Stat. 23 (2005).
                                                                                              Page 10
                           Planning for the 2006 Filing Season Is on Course,
                      but Challenges Exist for the Toll-Free Telephone Operations



whether assistors’ tools had been updated or planned to be updated. The review indicated the
Customer Account Services function has appropriately planned updates to the tools used by the
assistors to ensure taxpayers are provided the most current and accurate information.
Changes to the Internal Revenue Manual (the IRS’ internal guidelines), the Probe and Response
Guide,17 the IRS Intranet, and training documents have either been completed or are being
planned. Additionally, the Customer Account Services function has provided a dedicated
webpage on the IRS Intranet where assistors can review information on changes and updates
related to Hurricanes Katrina and Rita. Some updates to the Probe and Response Guide and the
Electronic Accounts Resolution Guide18 have already been made (as of November 1, 2005).
Final revisions have not yet been published in the Internal Revenue Manual; those updates are
scheduled for publication by January 1, 2006.

Conclusion
The Customer Account Services function has an effective process to prepare its toll-free
telephone operations for the 2006 Filing Season. In addition, it has considered the effects of
Hurricanes Katrina and Rita in its planning efforts and, although it does not believe there will be
a significant influx of calls from those taxpayers affected by these disasters, it has planned more
services to the toll-free telephone lines dedicated to disaster relief applications. If the Customer
Account Services function 2006 Filing Season plans are properly implemented, taxpayers who
call the IRS toll-free telephone lines for assistance should receive effective customer service.
Thus, we made no recommendations in this audit report. However, because of the effect of
about 400 fewer Full-Time Equivalents and the potential effect of the recent Hurricanes,
taxpayers may have to wait longer before speaking with an assistor. The TIGTA will monitor
the toll-free telephone operations during the 2006 Filing Season.




17
   The Probe and Response Guide is used by assistors to respond to telephone tax law inquiries on the topics
covered in the Guide.
18
   The Electronic Accounts Resolution Guide is used by assistors to respond to telephone and in-person inquiries
regarding tax account issues.
                                                                                                           Page 11
                           Planning for the 2006 Filing Season Is on Course,
                      but Challenges Exist for the Toll-Free Telephone Operations



                                                                                                   Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Wage and Investment Division
Customer Account Services function adequately prepared its toll-free telephone operations for
the 2006 Filing Season (the period from January through mid-April when most individual
income tax returns are filed) and adequately considered and accounted for the effects of
Hurricanes Katrina and Rita in the 2006 Filing Season preparations. To accomplish our
objective, we:
I.       Reviewed guidelines and documents used to ensure 2006 Filing Season readiness;
         discussed filing season readiness with appropriate Internal Revenue Service (IRS)
         officials; and determined if Customer Account Services function management identified
         the appropriate objectives and goals for the 2006 Filing Season, especially for those areas
         affected by Hurricanes Katrina and Rita.
         A.       Obtained and reviewed copies of the Draft Fiscal Year 2006 Program Letter,1
                  attachments, assumptions, training assumptions and templates; Filing Season
                  Executive Steering Committee minutes and action items; and work plan
                  scheduling data from the Joint Operations Center web site.
         B.       Reviewed procedures and internal controls for ensuring filing season readiness.
         C.       Identified new tax law legislation passed during Calendar Year 2005, especially
                  that relating to Hurricanes Katrina and Rita.
         D.       Compared the 2005 Work Plan for the Second Planning Period (January through
                  June) to the 2006 Work Plan for the Second Planning Period data on the Joint
                  Operations Center web site to determine if the effects of the two Hurricanes had
                  been considered and incorporated.
II.      Determined if the Customer Account Services function ensured all staff are adequately
         trained.
         A.       Discussed with Customer Account Services function management and analysts
                  the procedures for ensuring all assistors, including employees that might be



1
 The Customer Account Services function Fiscal Year 2006 Program Letter had not been issued during the time we
were conducting our audit tests. Therefore, our results are based on the draft version of the Program Letter obtained
November 14, 2005.
                                                                                                            Page 12
                          Planning for the 2006 Filing Season Is on Course,
                     but Challenges Exist for the Toll-Free Telephone Operations



                 detailed to the toll-free telephone lines, have had the required training prior to the
                 start of the filing season.
        B.       Reviewed training plans and scheduling templates prepared to ensure timely
                 completion of all training for both permanent and seasonal employees.2
        C.       Determined if procedures and internal controls are adequate to ensure all staff are
                 adequately trained and kept current on any changes to the tax laws.
III.    Determined if all tools used by the toll-free telephone assistors are updated with new tax
        law and procedures, specifically those dealing with Hurricanes Katrina and Rita. We
        compared proposed changes to the Probe and Response Guide,3 Electronic Accounts
        Resolution Guide,4 IRS Intranet sites, and Internal Revenue Manual (the IRS’ internal
        guidelines) to the Katrina Emergency Tax Relief Act of 20055 legislation and other new
        legislation enacted during Calendar Year 2005, to determine if those tools were or are
        scheduled to be updated with current information.




2
  Seasonal employees work during high workload volume periods that are specified in their seasonal employment
agreement each year.
3
  The Probe and Response Guide is used by assistors to respond to telephone tax law inquiries on the topics covered
in the Guide.
4
  The Electronic Accounts Resolution Guide is used by assistors to respond to telephone and in-person inquiries
regarding tax account issues.
5
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
                                                                                                          Page 13
                      Planning for the 2006 Filing Season Is on Course,
                 but Challenges Exist for the Toll-Free Telephone Operations



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs) (Designee)
Augusta R. Cook, Director
Scott A. Macfarlane, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Jackie Forbus, Senior Auditor
Robert Baker, Auditor
Jean Bell, Auditor




                                                                                   Page 14
                     Planning for the 2006 Filing Season Is on Course,
                but Challenges Exist for the Toll-Free Telephone Operations



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 15
          Planning for the 2006 Filing Season Is on Course,
     but Challenges Exist for the Toll-Free Telephone Operations



                                                     Appendix IV


Management’s Response to the Draft Report




                                                            Page 16
